   Office of Inspector General
        Audit Report


FAA OVERSIGHT IS KEY FOR CONTRACTOR-OWNED
 AIR TRAFFIC CONTROL SYSTEMS THAT ARE NOT
                  CERTIFIED

          Federal Aviation Administration

           Report Number: AV-2011-149
           Date Issued: August 4, 2011
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: FAA Oversight Is Key for                                            Date:   August 4, 2011
           Contractor-Owned Air Traffic Control
           Systems That Are Not Certified
           Federal Aviation Administration
           Report Number AV-2011-149

  From:    Jeffrey B. Guzzetti                                                          Reply to
                                                                                        Attn. of:    JA-10
           Assistant Inspector General
             for Aviation and Special Program Audits

    To:    Federal Aviation Administrator

           The Federal Aviation Administration’s (FAA) certification process is an integral
           quality control method to ensure that air traffic control systems, subsystems, and
           services directly affecting the flying public are safe and function as intended.
           FAA has historically owned and operated all key air traffic control (ATC) systems
           in the National Airspace System (NAS) but has transitioned more of them to the
           private sector in recent years. In 2007, FAA revised its certification policy to
           require Agency certification for FAA-owned, but not contractor-owned, systems.

           Given this policy shift, the former Chairmen of the House Committee on
           Transportation and Infrastructure and Subcommittee on Aviation requested that
           we assess the impact of the certification change on FAA’s overall responsibility
           for maintaining the safety and integrity of key NAS systems. Specifically, they
           cited concerns that this change could reduce FAA’s visibility into the quality and
           performance of these systems. For example, while FAA will use the Automatic
           Dependent Surveillance - Broadcast (ADS-B) system 1—which is expected to be a
           cornerstone of the Next Generation Air Transportation System (NextGen)—for
           moment-by-moment control of aircraft, FAA will not certify the system’s
           contractor-owned ground infrastructure. Accordingly, our objectives were to
           (1) assess the impact of FAA’s revised certification policy on the safety and
           integrity of air traffic control systems, such as ADS-B, and (2) identify


           1
               ADS-B is a satellite-based surveillance technology that is designed to supplement radar, using aircraft avionics and
               ground-based systems to provide information on aircraft location to pilots and air traffic controllers.
                                                                                   2


vulnerabilities that FAA faces in relying on private sector ownership of key air
traffic management systems.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Exhibit A details our scope and methodology, and
exhibit B lists facilities visited or contacted.

RESULTS IN BRIEF
FAA is gaining insight from its experience using monitoring rather than
certification to ensure the ADS-B ground infrastructure meets FAA’s standards.
Therefore, FAA’s justification for this decision is not fully developed, and as such,
we could not fully assess the outcomes of FAA not certifying contractor-owned
systems. Regardless, the outcomes are of critical importance because FAA is
solely responsible for maintaining the safety and integrity of the NAS. In the case
of ADS-B, FAA has developed an active monitoring system called the
Surveillance and Broadcast Service (SBS) monitor that is intended to help FAA
ensure the ground equipment at each individual ADS-B site is working. There are
risks with this oversight approach. In particular, FAA has not developed
automated means and procedures to analyze the large amount of performance data
that the SBS monitor generates or assigned sufficient staff to do the analyses.
Also, FAA has not ensured the network design for the SBS monitor works as
intended and is a reliable tool that can help FAA avoid and resolve outages.

As FAA shifts from operating its own systems to overseeing contractor-owned and
-managed systems, the Agency is vulnerable to losing long-term visibility into
NAS system performance. While the SBS monitor may prove a viable alternative
to certification for ADS-B, it is unique in the NAS. FAA does not formally
require such a monitoring capability for all NAS systems regardless of ownership
and instead makes this decision on a case-by-case basis for contractor-owned
systems. These systems, however, will be a large part of the NAS and, as such,
FAA’s inconsistent application of its own quality standards, such as remote
monitoring, poses a risk of inadequate performance. A second vulnerability facing
FAA, as more contractor-owned systems are allowed into the NAS, is inadequate
logistics support. Contractor oversight is resource intensive, and FAA will need
assurance that contractor systems meet FAA reliability standards. However, FAA
has serious shortfalls in logistics personnel—a critical concern since we found that
FAA’s logistics staff provide significant technical expertise and oversight of the
contractor-owned ADS-B equipment and networks. Securing this expertise is
especially vital in cases where FAA must assume greater control, especially when
the contractor has inadequate logistics and maintenance support, which has
occurred in the past.
                                                                                                                        3


We made six recommendations to FAA to address immediate risks with an
independent monitoring capability and potential vulnerabilities as the Agency
becomes more reliant on contractor-owned NAS systems. FAA concurred with all
of our recommendations, but we have requested that the Agency clarify its
response for two of them.

BACKGROUND
FAA maintains a comprehensive certification process designed to ensure that all
NAS systems, subsystems, and services work safely. 2 According to FAA,
certification is a quality control method used by the Air Traffic Organization’s
Technical Operations staff to ensure NAS systems and services are performing as
expected. 3 FAA certification encompasses several “levels” 4 and is accomplished
by having a credentialed 5 FAA technician check and test systems or pieces of
equipment on a periodic basis to ensure that they can be safely operated or
returned to service and will not negatively impact any aspect of the NAS. FAA
has criteria for determining which NAS systems and services require certification. 6
The criteria dictate that certification is required if a NAS system provides any of
the following:

    • Moment-by-moment positional information to pilots or Air Traffic personnel
      during aircraft operations or communications control during these operations
    • Essential meteorological information for aircraft taking off and landing
    • Decision support information that could directly affect aircraft heading,
      altitude, routing, control, or conflict awareness

In September 2007, FAA revised its certification procedures to clarify that only
“FAA-owned or -maintained NAS systems” must be certified. Previously, FAA
did not specify ownership or maintenance responsibility as a specific requirement
for certification. According to FAA, the revision to its certification procedures
was made due to the 2005 transfer of FAA’s flight services operations to
Lockheed-Martin (except those provided by FAA-owned and maintained systems



2
    FAA’s legal authority for certifying systems is Title 49, U.S.C. Sec. 44502, which states the FAA Administrator
    may (a) acquire, establish, improve, operate, and maintain air navigation facilities and (b) provide facilities and
    personnel to regulate and protect air traffic. FAA’s certification process is described in Order 6000.15E.
3
    FAA Order 6000.30D, “National Airspace Maintenance Policy.”
4
    Every higher level encompasses the levels below it. Equipment is the lowest, then Sub-System, System, and finally
    Service, which is the highest level of certification.
5
    FAA issues certification credentials to individuals who have attained a professional level and are responsible for the
    operation and performance of air traffic control facilities. The credentials process is a confirmation that the
    individual possesses the knowledge and skills to assume responsibility for the operations of a service, system, or
    subsystem.
6
    FAA Order 6000.15E, “General Maintenance Handbook for NAS Facilities.”
                                                                                                                      4


in Alaska) under the FS-21 contract. 7 However, FAA did not formally implement
the policy change until 2007, soon after the Agency awarded a service-based
contract to ITT for ADS-B. Under the contract terms, the Agency will own
ADS-B surveillance data transmitted, and the design and configuration of the
system, but ITT will own the hardware and ground infrastructure used to transmit
the signal to FAA’s air traffic control facilities.

In applying the revised procedures to ADS-B, FAA will certify the ADS-B data
provided by avionics on ADS-B-equipped aircraft and at the FAA facilities using
or routing the ADS-B data 8 (see figure 1 below). However, FAA will not certify
the hardware components that make up ITT’s ground system.

                 Figure 1. FAA Depiction of ADS-B Service Certification




         Note: ITT’s ground
         infrastructure is not certified.


Source: OIG, based on a graphic by FAA

FAA states that it will certify ADS-B data similarly to how it certifies radar data.
According to FAA, the ADS-B signal contains electronic metrics intended to
assure accuracy and integrity through continuous automatic monitoring; therefore,
FAA maintains it does not need to certify ITT’s ground infrastructure that
transmits the data.

7
    Flight service stations provide aeronautical information, such as weather briefings, flight planning assistance, and
    aeronautical notices. In 2005, FAA awarded a contract to Lockheed Martin to provide flight services under the
    Flight Services-21 (FS-21) program. See OIG Report Number AV-2007-048, “Controls Over FAA’s Conversion of
    Flight Service Stations to Contract Operations,” May 18, 2007. OIG reports are available on our Web site:
    http://www.oig.dot.gov/.
8
    FAA’s certification process includes certification of avionics in accordance with Technical Standard Orders and
    Advisory Circulars and technician certification at the automation platform.
                                                                                 5


MONITORING RATHER THAN CERTIFYING AIR TRAFFIC
CONTROL SYSTEMS SUCH AS ADS-B PRESENTS RISKS
FAA’s decision to require certification only for FAA-owned, not contractor-
owned systems did not change the Agency’s responsibility for the safety and
integrity of the NAS. However, it is too early to gauge the full impact of this
decision because FAA is only in the early stages of its experience with systems,
such as ADS-B, that are not certified under this new approach. FAA uses an
automation tool, the SBS monitor, to alert FAA if ADS-B components are
unreliable for managing air traffic due to outages or discrepancies. Tests of the
monitor indicate it aids FAA’s oversight of ADS-B’s performance, but there are
risks with this approach that FAA has not addressed and that will be especially
important if it decides to use similar tools to oversee other contractor-owned
systems. First, only a fraction of the 800 planned ADS-B ground sites are
operational. Yet, the SBS monitor is already generating more performance data
than the assigned FAA staff have time to analyze. Further, FAA is still developing
automated means and procedures for such data analysis. Second, the ADS-B
contractor is still implementing a remediation plan in response to an 11-hour
ADS-B outage last summer that affected air traffic over the Gulf of Mexico and
disabled the SBS monitor. This outage highlights FAA’s dependency on the
monitor for visibility into the ADS-B network’s operational status. Consequently,
the effectiveness of FAA’s contractor oversight using monitoring in lieu of
certification will only be as reliable as the monitoring tools FAA develops and
deploys.

FAA Has Limited Experience With the SBS Monitor and Lacks Means
To Analyze the Performance Data
Early tests of the SBS monitor indicate it will aid FAA’s oversight of ADS-B
system performance. However, FAA has limited experience overall with the
monitor. As of late April 2011, the monitor was covering 335 of the
approximately 800 transceivers ITT intends to deploy nationwide. Moreover, the
Agency has yet to develop a means to analyze the extensive volume of
performance data the monitor generates or assign sufficient staff for that purpose.
Until FAA addresses these issues, it is not clear whether FAA’s monitoring plan
will be sufficient to actively monitor all 800 ADS-B ground transceivers, once
deployed, to ensure FAA’s requirements are being met.

FAA has installed two SBS monitors at a cost of $10.4 million: one at the FAA
Technical Center in Atlantic City, NJ, and one at the FAA Aeronautical Center in
Oklahoma City, OK. Originally, FAA planned to deploy more than 20 monitors,
but based on a cost-benefit analysis, FAA decided to deploy just the 2 systems.
During actual testing, we observed that the SBS monitor: 1) displayed known out-
of-service transceiver sites in Alaska—depicting the “red alert” status for
                                                                                   6


non-functioning equipment and providing green indications for functioning
equipment—and 2) allowed continuous “24/7” automated coverage that is not
possible through periodic site visits by a certified technician.

While these tests showed that the SBS monitor is useful, it is important to note that
the SBS monitors convey a large amount of information about the ADS-B system
that requires FAA to commit both staff resources and develop procedures for
analyzing this information. Specifically, each monitor displays graphics and text
(see figure 2 below) showing the status of ITT’s ground transceivers. This
information is intended to provide FAA personnel with enough detail to examine
component performance within each of ITT’s transceiver stations and help assess
whether the contractor is meeting contract specifications.

      Figure 2. SBS Monitor Displaying ADS-B Transceiver Station Data




Source: OIG picture at Oklahoma City, OK

However, FAA has yet to develop automated analyses capabilities for the
performance data or procedures for analyzing and using the performance data
collected from each site to help verify the reliability of the ADS-B ground system
components. After the first 83 ground stations were deployed, the monitoring
system was already generating 1,100 pages of data per month on the reliability of
individual system components. Moreover, according to FAA officials responsible
for the design and deployment of the SBS monitor, four staff are required to
analyze the data that the monitor delivers, but only two have been assigned despite
requests to the program office for additional resources. In sum, the SBS tool will
not be a fully effective monitor of the ADS-B system without procedures and
capabilities in place to analyze the system’s data. This will be further exacerbated
                                                                                                                       7


given the massive increase of data that will come with full deployment of
800 ground stations.

The SBS Monitor Proved To Be Unreliable During an ADS-B Network
Outage, Validating Risks
According to FAA, the data from the SBS monitor are essential to verify whether
FAA can rely on the ADS-B ground system and identify trends in performance.
However, relying on these data also presents risks, particularly in light of the
monitoring system’s vulnerability to network failure. During an August 2010
ADS-B network outage, the SBS monitor failed to work as intended and proved
unreliable. The outage, which lasted more than 11 hours and affected traffic
throughout the Gulf of Mexico, required controllers to manually separate ADS-B-
equipped aircraft in non-radar airspace, 9 and revealed a weakness in the ADS-B
network design. At the time of the outage, ITT was operating a single network
hub (called a National Operations Center) without a back-up capability. 10 When
the network outage occurred, surveillance data transmitted by ITT’s ground
system through the hub stopped reaching FAA control centers. At the same time,
the SBS monitors stopped receiving ground equipment status information because
this information also flows through the hub and not directly from ITT’s ground
system components. This outage demonstrated that unless FAA receives direct
input from each of the 800 planned ITT transceivers, the Agency will not have
independent assurance that the ground system is performing to FAA’s
specifications. According to FAA, ITT is implementing an ADS-B Outage
Remediation Plan, which includes providing back-up communication between ITT
and FAA locations from a second network hub. The majority of the remediation
work was completed during the second quarter of fiscal year 2011.

A subsequent FAA independent test report in September 2010 11 further
underscored the need for an effective SBS monitor that alerts FAA to performance
problems in the ITT ground system and highlighted the need to expedite this
effort. The report stated that the ADS-B system remains vulnerable to an outage
and noted significant gaps in reporting procedures and communication between
facilities that manage air traffic, Agency operational control centers, and
scheduled and unscheduled ADS-B maintenance activities. Additionally, the
report stated that training for more than 100 FAA staff on diagnosing problems
with ADS-B was either inadequate or not provided in a timely manner. FAA has
begun addressing the report’s recommendations, which included that the ADS-B
program office assess gaps in communication and procedures for ADS-B outages,

9
     Much of the air traffic in the Gulf of Mexico consists of low-flying helicopters servicing hundreds of off-shore oil
     platforms.
10
     The NOC is the hub into which all ADS-B surveillance data flows before being transmitted to controllers’ displays.
11
     Office of Independent Safety Assessment, Automatic Dependent Surveillance-Broadcast (ADS-B) Critical Services
     Independent Operational Test and Evaluation (IOT&E) Report, September 10, 2010.
                                                                                                   8


implement solutions to those gaps, improve notification procedures to ensure real-
time reporting of service status to FAA facilities, and develop comprehensive
training on ADS-B and the SBS monitor.

Another event that demonstrated the need for an independent and reliable FAA
monitoring capability occurred in November 2009, when the contractor-owned
and operated FAA Telecommunications Infrastructure (FTI) experienced an
outage that delayed more than 800 flights nationwide. As we reported in June
2010, 12 the FTI outage exposed key limitations on FAA’s and the prime
contractor’s abilities to oversee FTI, as neither could readily identify the specific
components that failed or their location in the NAS. During our review of the FTI
outage, the Air Traffic Organization’s Chief Operating Officer told us that a
“paradigm shift” in how FAA oversees contractor-owned systems is needed. This
is particularly important given that FAA plans to rely on a contractor to develop
and implement Data Communications—a NextGen transformational program that
will require a multibillion-dollar investment.

FAA FACES POTENTIAL LONG-TERM VULNERABILITIES IN
EFFECTIVELY OVERSEEING CONTRACTOR-OWNED SYSTEMS
FAA’s shift from operating its own systems to overseeing contractor-owned and
-managed systems exposes the Agency to several long-term vulnerabilities that
may limit its visibility into NAS system performance. First, contactor-owned
systems are expected to be fully integrated into the NAS, but it is not clear
whether FAA is fully committed to applying FAA safety and quality control
standards equally to all systems regardless of ownership. In addition, oversight of
the early ADS-B deployment is resource-intensive and, in particular, requires
logistics expertise to oversee the contractor’s infrastructure. However, FAA has a
personnel shortfall for these essential services Agency-wide. Having the right
logistics expertise takes on greater importance in cases where contractor logistics
support plans for contractor-owned systems have proven inadequate and FAA has
had to assume control of contractor logistics and maintenance, which the Agency
did in 2010 for the Standard Terminal Automation Replacement System (STARS).

FAA Standards, Such as Remote Monitoring, Are Not Consistently
Applied to Contractor-Owned Systems
As the number of privately owned systems that are expected to be fully integrated
into the NAS expands, FAA is at increased risk of inadequate contractor
performance by not applying the same standards to contractor-owned systems that
it requires for its own systems. This is particularly a risk given that FAA’s

12
     OIG Correspondence CC-2010-012, “Letter to Chairmen Oberstar and Costello Regarding the 2009 FAA
     Telecommunications Infrastructure Outage,” June 17, 2010.
                                                                                 9


commitment to equally applying these standards has not always been
demonstrated. Most notably, the SBS monitor is unique to ADS-B and an
alternative to certification; FAA has yet to require a similar type of monitoring
capability for all NAS systems regardless of ownership. In the past, FAA required
that new NAS systems had to be remotely monitored—a requirement that enables
continuous independent oversight regardless of how far a remote system may be
located from an observer who can determine whether that system is performing in
accordance with FAA specifications. However, FAA recently approved a revised
order on remote monitoring of NAS systems that allows the decision of whether
remote monitoring will be required for contractor-owned systems to be made on a
case-by-case basis. FAA’s dependency on the SBS monitor demonstrates the
critical need for this type of capability to oversee the ADS-B ground
infrastructure. Without a similar type of capability for other contractor-owned
systems, FAA could jeopardize the Agency’s visibility into system performance,
and of greater importance, the safety and reliability of the NAS.

Drawing distinctions between FAA-owned and contactor-owned systems in terms
of requiring a monitoring capability sets a precedent that exposes FAA to potential
vulnerability should FAA also decide to not hold contractors to other quality and
performance standards. To provide assurance that contractor-owned systems will
meet FAA’s needs before putting them into operation, FAA has a series of
established operating orders. For example, all FAA-owned systems are required
to pass the following:

 • Factory, service, and site acceptance tests to ensure that systems meet FAA
   standards and that FAA has a presence throughout the development and
   implementation cycle.

 • Functional and physical configuration audits to ensure that components are
   manufactured and installed to specifications and standards.

 • Independent operational tests and evaluations to ensure that FAA
   independently verifies that systems meet Agency requirements after
   implementation.

ADS-B implementation in Florida demonstrated the importance of taking steps to
ensure that contractor-owned systems meet the same standards as those for FAA-
owned systems. During a product configuration audit, which FAA requires for all
newly deployed systems, regardless of ownership, FAA field personnel correctly
identified that an ADS-B transceiver was installed with no back-up transmitter
system, although the blueprints for the site called for a back-up. Had FAA’s
requirements to conduct a configuration audit not been applicable to contractor-
                                                                                                      10


owned systems, this critical issue may not have been identified until the
transceiver failed and the absence of a back-up capability had been revealed.

FAA’s Logistics Support Needed for Effective Contractor Oversight Is
Inadequate
Contractor oversight is resource intensive and requires the right expertise in a
number of essential areas, one of which is logistics support. However, FAA has
serious shortages in the logistics personnel needed to oversee these essential
services Agency-wide. We cautioned in an October 2007 hearing before the
House Aviation Subcommittee that FAA’s approach for implementing ADS-B
would require an extraordinary level of oversight. 13 Currently, the ADS-B
program office is using both contractor and in-house staff to oversee ITT’s ADS-B
implementation. More specifically, as we observed with ADS-B, staff at FAA’s
Logistics Center in Oklahoma City, OK, are heavily involved in providing
technical expertise and oversight of the contractor-owned equipment and
networks. However, once the ADS-B infrastructure is fully deployed, FAA will
require a different skill mix; specifically, more internal expertise in contracting,
logistics, and program management and less expertise in research and acquisition.
FAA’s 2010 fiscal year budget submission indicated that it identified a “serious
shortage of government personnel” to oversee logistics services Agency-wide. As
an important step to address this shortage, FAA requested a funding increase from
its 2009 budget and included increased numbers of logistics personnel as an item
in its initial acquisition workforce plan. We have work underway to examine
FAA’s progress in addressing these issues. 14

Securing the necessary logistics expertise takes on greater urgency in cases where
FAA’s logistics support plans for contractor-owed systems may not be adequate.
FAA requires contractors to prepare a logistics support plan to ensure that they
will provide satisfactory system support and maintenance throughout the life of
the contract, but this method has proven limitations. For example, in 2010, FAA
assumed control of the maintenance and logistics for STARS (Standard Terminal
Automation System) after the Agency determined it was financially advantageous
to perform these functions in-house. However, according to the FAA logistics
center, the turnover was complicated because the contractor did not maintain
adequate logistics information about the STARS system. While contractors are
required to prepare logistics support plans for FAA approval, FAA can find itself
vulnerable should these support plans not include sufficient documentation, such
as parts numbers and supplier information. FAA’s experience with STARS
demonstrated how this vulnerability can manifest itself.

13
     OIG Testimony Number CC-2007-100, “Challenges Facing the Implementation of FAA’s Automatic Dependent
     Surveillance - Broadcast Program,” October 17, 2007.
14
     OIG Audit Announcement, “FAA’s Acquisition Workforce,” issued November 23, 2009.
                                                                                                     11


CONCLUSION
FAA is embarking on an urgently needed transformation of the Nation’s air traffic
system, and certification of NAS systems is important to ensure that new systems
perform as intended and do not negatively impact safety. Regardless of ownership
and whether systems are certified, FAA cannot afford to lose visibility into system
performance. While we focused on FAA’s efforts to monitor the performance of
the uncertified ADS-B ground infrastructure in our audit, our results indicate that
similar levels of contract oversight will be essential for all future NextGen-critical
technologies that are contractor-owned but not certified. Our work also highlights
a number of vulnerabilities that FAA faces and must mitigate in carrying out this
oversight. Otherwise, the full impact of FAA’s transition of systems and services
to the private sector and the revised certification procedures will remain uncertain
as will the Agency’s ability to safely integrate contractor-owned systems into the
NAS.

RECOMMENDATIONS
We recently made a number of recommendations to FAA to reduce risk and
enhance contract oversight of ADS-B, which FAA has concurred with and begun
to address. 15 In addition, FAA is responding to recommendations from an
independent safety report that addressed improving training on ADS-B and the
SBS monitor for technicians and supervisors, including how to diagnose system
problems.

As a result of this audit and to further reduce risk with the SBS monitor, we
recommend that the SBS program office:

1. Complete the development of automated capabilities and procedures for
   analyzing the contractor performance data being collected from the SBS
   monitoring system.

2. Evaluate the number of FAA staff currently assigned to analyze the extensive
   volume of data the SBS monitoring system generates and require additional
   resources be allocated as appropriate.

3. Document and apply the lessons learned from the August 6, 2010, ADS-B
   outage to improve the SBS monitor’s functionality and performance.
   Specifically, as part of the remediation plan, take steps to ensure real-time
   reporting of ITT transceiver service status directly to the SBS monitoring
   system from each ADS-B ground system transceiver site.


15
     OIG Report Number AV-2011-002, “FAA Faces Significant Risks in Implementing the Automatic Dependent
     Surveillance–Broadcast Program and Realizing Benefits,” October 12, 2010.
                                                                                 12


To address potential vulnerabilities as FAA becomes more reliant on contractor-
owned systems in the NAS, we recommend that FAA:

4. Apply FAA standards and quality assurance practices to all NAS systems
   regardless of ownership.

5. Assess the costs and benefits of requiring a monitoring capability, similar to
   the SBS monitor for ADS-B, in lieu of certification for all contractor-owned
   systems in the NAS and require that capability to be developed as appropriate.

6. Acquire the logistics expertise needed to oversee all contractor-owned systems
   in the NAS to include requiring that contractor logistics support plans contain
   sufficient documentation regarding system maintenance.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on June 21, 2011, and received its
response on July 20, 2011. FAA’s response is included in its entirety as an
appendix to this report. FAA concurred with all of our recommendations, and the
planned actions and milestones meet the intent for most of them. However, we are
requesting that FAA clarify its actions regarding recommendations 5 and 6.

For recommendation 5, FAA identified several systems, in addition to ADS-B, for
which the Agency relies on a monitoring capability. For future systems, FAA
states that each program will separately assess the costs and benefits of having a
monitoring capability in accordance with the Agency’s Acquisition Management
System policy. While we acknowledge the importance of adhering to existing
policies in making these decisions, it is unclear from FAA’s response whether its
decisions to require monitoring capabilities will be based on the cost and benefit
analyses or the priority the Agency will give monitoring capabilities in light of
other investment decisions. FAA’s dependency on the SBS monitor demonstrates
the critical role of this type of capability in overseeing contractor-owned systems.
FAA’s response does not specifically recognize the critical importance of
contractor monitoring for future programs, which is the intent of our
recommendation. Accordingly, we are requesting that FAA clarify its response.

For recommendation 6, FAA states that it will provide training to certify
25 contractor logistics specialists, which we agree is an important step forward.
However, it is unclear how FAA has determined that 25 is the appropriate number
of logistics specialists needed to oversee current and future contractor-owned
systems, as well as review contractor logistics support plans for sufficiency and
adequacy. Therefore, we are requesting that FAA provide additional details for
                                                                                13


determining how many logistics specialists will be needed to oversee these
essential services Agency-wide, and describe its plan for achieving that goal.

ACTIONS REQUIRED
FAA’s planned actions and target dates for recommendations 1, 2, 3, and 4 are
responsive, and we consider these recommendations resolved but open pending
completion of planned actions. However, we request that FAA clarify, within
30 days of this report, its responses to recommendations 5 and 6. Specifically, for
recommendation 5, we request that FAA clarify whether the Agency will formally
require a monitoring capability for future contractor-owned systems based on cost
and benefit analyses. For recommendation 6, we request additional details
regarding its plan to acquire the logistics support specialists that are needed to
oversee current and future services Agency-wide.

We appreciate the courtesies and cooperation of FAA and industry representatives
during this audit. If you have any questions concerning this report, please contact
me at (202) 366-0500 or Barry DeWeese, Program Director, at (415) 744-0420.

                                        #

cc: FAA Deputy Administrator
    Vice President for En Route and Oceanic, Air Traffic Organization
    Vice President Terminal Services, Air Traffic Organization
    Anthony Williams, AAE-001
    Martin Gertel, M-1
                                                                                   14


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions. We
conducted the audit between October 2009 and June 2011 and included such tests of
procedures and records as we considered necessary, including those providing
reasonable assurance of detecting abuse and illegal acts.

To conduct our work, we examined documentation provided by the program office
related to the Air Traffic Certification Process and the ADS-B program.
Specifically, we reviewed ADS-B implementation plans, test results, and contract
documentation related to scope of work and technical performance requirements.
We analyzed sections of FAA’s acquisition management system and orders related
to certification, logistics, maintenance, and operations. We also interviewed FAA
administration personnel, program office officials, industry, and union
representatives to discuss the rationale for, and impact of, the 2007 change in
certification requirements. Additionally, we reviewed FAA presentations for
ADS-B made to stakeholders, Performance Control Board presentations; and other
documentation that were provided by FAA to industry, government and Congress.
During the audit, we contacted or visited FAA Headquarters, ADS-B Program
Office, the FAA Technical Center and Logistics Center, Air Carriers, ITT offices,
and various Key ADS-B field sites. At those locations, we discussed a range of
topics to include role in the certification process for FAA-owned facilities and
potential vulnerabilities of private sector ownership of NAS systems.




Exhibit A. Scope and Methodology
                                                                              15


EXHIBIT B. FACILITIES VISITED OR CONTACTED
Industry Contacts
   • Boeing Traffic Management
   • ITT Corporation
   • Alaska Air Carriers Association

FAA Headquarters, Washington, DC
   • Surveillance Broadcast System Program Office, Washington, D.C.

FAA Field Locations
   • FAA Logistics Center and Aviation System Services at Oklahoma City, OK

   • FAA Technical Center, Atlantic City, NJ

   • Alaska Regional Office, Air Route Traffic Control Center, and Aircraft
     Certification Office in Anchorage, AK (Juneau Key Site)

   • Southwest Regional Office, Houston, TX (Gulf of Mexico Key Site)

   • Southern Region, College Park, GA (Louisville, KY Key Site)




Exhibit B. Facilities Visited or Contacted
                                                    16


EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

Name                             Title

Barry DeWeese                    Program Director

Chuck Ward                       Project Manager

Gregg Bond                       Senior Analyst

Henning Thiel                    Analyst

Andrea Nossaman                  Writer-Editor

Audre Azuolas                    Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                         17


APPENDIX. AGENCY COMMENTS



                    Federal Aviation
                    Administration

Memorandum
Date:
To:            Jeffery B. Guzzetti, Assistant Inspector General for Aviation and Special
               Program Audits
From:          Clay Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:       OIG Draft Report: FAA Oversight Is Key for Contractor-Owned Air
               Traffic Control Systems That Are Not Certified


The Federal Aviation Administration’s (FAA) NextGen implementation will be
comprised of both FAA owned and operated systems as well as provisioned services
provided by private corporations. Regardless of how a given capability is established
within the National Airspace System (NAS), the FAA recognizes that through a
combination of its Safety Management System policy, it's AMS policy and its life cycle
maintenance policy that fielded systems/services must be certified in order to maintain
the target level of safety for the respective NAS capability.

Achieving NextGen benefits requires that the agency integrate new technologies and
evolve both its oversight and business process roles. In the latter, the coordination of the
respective policies identified above and their implementation is expected to provide this
oversight and ensure compliance of all systems/services proposed for NAS integration.
There is some work still to be done in this regard and our responses below indicate both
progress for the specific Surveillance Broadcast System (SBS) program as well as plans
for policy and practice implementation for other similar proposed systems and services in
the future.

OIG Recommendation 1: Complete the development of automated capabilities and
procedures for analyzing the contractor performance data being collected from the SBS
monitoring system.

FAA Response: Concur. The SBS Program Office will complete the development of
automated capabilities and procedures for analyzing the contractor performance data



Appendix. Agency Comments
                                                                                         18


being collected from the SBS monitoring system by June 2012 with an interim software
build for the SBS monitor in December 2011.

OIG Recommendation 2: Evaluate the number of FAA staff currently assigned to
analyze the extensive volume of data the SBS monitoring system generates and require
additional resources be allocated as appropriate.

FAA Response: Concur. The SBS Program office recently approved, and is funding, an
additional 6 FTEs for SBS Monitor data analysis. Additional resources from other FAA
organizations will also be engaging in SBS Monitor data analysis, including Second
Level Support, the Operational Support Facilities, and the Program Operations Field
Managers. By December 2011, a draft In Service Management Plan will be developed
which will contain details on how the FAA will manage and monitor the operations of the
SBS service, including resource requirements.

OIG Recommendation 3: Document and apply the lessons learned from the August 6,
2010, Automated Data Surveillance–Broadcast (ADS-B) outage to improve the SBS
monitor's functionality and performance. Specifically, as part of the remediation plan,
take steps to ensure real-time reporting of ITT transceiver service status directly to the
SBS monitoring system from each ADS-B ground system transceiver site.

FAA Response: Concur. The FAA has documented a step-by-step outage remediation
plan which is being updated monthly and reported to the COO. To prevent further SBS
Network Outages as well as address the General Accountability Office’s
recommendations to account for human factors in NextGen implementation, SBS is
executing a 4-pronged approach to strengthen the reliability and resilience of the ITT
network: 1) ITT Human Process Intervention; 2) ITT Improvement in preventing
outages; 3) ITT Improvement in restorative services: and 4) FAA- ITT joint
preventative measures. The majority of planned steps have been completed. The details
of this remediation plan are reported in Attachment 1.

The remaining two steps are: A) Investigate improvements and implement corrective
actions in the communications between ITT and FAA Operational Control Centers and
Service Delivery Points, planned completion is November 30, 2011; and B) Closely
monitor service and radio reliability and take corrective actions as needed. On-going
analyses have been established through the use of an FAA Monitor that provides detailed
monthly reports. The planned completion date of the final step and the overall
remediation plan is December 30, 2011.

OIG Recommendation 4: Apply FAA standards and quality assurance practices to all
NAS systems regardless of ownership.

FAA Response: Concur. The Safety Division of the Air Traffic Organization will work
with Technical Operations and the program offices to develop methods and standards
specifically designed to provide quality assurance practices toward all NAS systems
regardless of ownership. As an example, we are presently updating our NAS


Appendix. Agency Comments
                                                                                          19


Maintenance Policy to distinguish our provisioning services with systems such as ADS-
B. We will complete a draft strategy by
October 31, 2011.

OIG Recommendation 5: Assess the costs and benefits of requiring a monitoring
capability, similar to the SBS monitor for ADS-B, in lieu of certification for all
contractor-owned systems in the NAS and require that capability to be developed as
appropriate.

FAA Response: Concur. Currently, the agency accomplishes very similar monitoring,
oversight & performance assurance for other FAA owned & leased systems utilizing
Remote Maintenance Monitoring (RMM), Remote Maintenance Logging System
(RMLS), National Airspace System Performance Analysis System (NASPAS), Operation
Control Centers (OCC), and the National OCC (NOCC). The ADS-B monitoring will be
accomplished in accordance with the “Technical Operations Services Maintenance
Concept of Operations for 2014 and Beyond,” dated May 27, 2011. Additionally, the
management of provisioned services is delineated in the draft “Order 6000.30E, National
Airspace System Maintenance Policy”, which is currently under review.

For any future systems, as the monitoring for each service provision is unique to that
acquisition, the Air Traffic Organization (ATO) standardizes the need for certification
through the tech ops maintenance policy, but manages the specific response and its
cost/benefit analyses through Acquisition Management System (AMS) policy. AMS
policy applies to all acquisitions regardless of whether they are FAA owned systems or
private service provisions. Recent changes to AMS policy require that the Vice President
(VP) for Technical Operations be a signatory for the Implementation Strategy and
Planning Document (ISPD), which identifies how a given system intends to implement a
capability, integrates into the NAS and is supported for its life cycle. It is expected that
this document, along with the functional requirements document, will form the basis for
subsequent cost/benefit analyses and the acquisition baseline formulation for the
program. These documents are all presented to the Joint Resources Council (JRC) as the
basis for any final investment decision. This process ensures that new services have
feasible and service certification provisions with costs fully understood as part of their
proposed baseline.

The acquisition executive board (AEB) is currently reviewing this process to ensure that
all proposed programs are following this process and that ATO Finance includes these
requirements in their cost validation and cost/benefit analyses. Review and approval of
practices to ensure this process is part of investment analysis process is part of an
ongoing the Verification and Validation (V&V) subgroup activity of the AEB. The AEB
is expected to receive recommended changes to current AMS practices from the V&V
subgroup in the first quarter of fiscal
year 2012.




Appendix. Agency Comments
                                                                                          20


OIG Recommendation 6: Acquire the logistics expertise needed to oversee all
contractor-owned systems in the NAS to include requiring that contractor logistics
support plans contain sufficient documentation regarding system maintenance.

FAA Response: Concur. The FAA Acquisition Workforce Council (AWC) has
identified integrated logistics support professionals as a critical need in its workforce
plan. To date, the AWC has identified core competencies, training requirements, and the
certification path for this profession. Additionally, the FAA has identified 25 Integrated
Logistics Support specialists in its acquisition workforce. The latest version of this plan,
to be published in September 2011, will identify certification targets for this population in
FY 2012. To address the specific needs of contractor-owned systems, by November 30,
2011 the FAA will conduct a review of its current contractor service provisions to
establish sufficiency of its logistics support plans and documentation. The output of this
review will be briefed to the Acquisition Workforce Council at its December 2011
meeting and will identify skill needs/gaps for contractor service provisions, update
certification targets for the integrated logistics support population as appropriate, and
identify additional workforce strategies for meeting such targets.




Appendix. Agency Comments
